  Investigative Report of
OSM Environmental Review




 Date Posted to Web: December 20, 2013




 This is a version of the report prepared for public release.
                                           SYNOPSIS

On December 6, 2011, we initiated this investigation after news outlets reported in November
that the Office of Surface Mining Reclamation and Enforcement (OSM) pressured contractors
working on an environmental impact statement (EIS) to lower their estimate of the number of
potential job losses associated with a proposed rule to protect streams located near coal mines.
OSM then allegedly ended their contract when they refused.

If adopted, the proposed Stream Protection Rule would place more requirements on coal mining
companies to protect streams near mine sites from the environmental effects of mining. OSM
hired engineering and environmental firms as contractors to work on the EIS, which examined
the environmental benefits of the proposed rule as well as potential socioeconomic effects,
including costs to the coal mining industry and job losses.

We initially focused our investigation on two allegations: that OSM pressured the contractors to
change their calculation methods to lower the number of job losses, and that OSM ended the
contract because the contractors refused to do so. We also examined the accuracy of a figure,
leaked to the media before these allegations surfaced, showing that some 7,000 jobs would be
lost if the new rule was implemented.

We found that OSM initially directed contractors to use one set of criteria to estimate coal
production losses and job losses associated with the Stream Protection Rule. After the
contractors determined that there would be high costs to the industry and significant job losses,
newer OSM employees involved in the project asked the contractors to change a variable in the
calculations. These OSM employees said they knew that this would lower the potential job-loss
numbers but felt strongly that the change was correct. Many of the individuals we interviewed,
however, including the contractors and career OSM employees, believed this change would
produce a less-accurate number. The Office of Management and Budget, which oversees these
economic reviews, originally approved the contractors’ first method, but subsequently reported
to us that both methods were acceptable.

While we found that OSM only began to seriously consider terminating the EIS contract after the
job losses were leaked, interviews and internal communications indicate that OSM’s
dissatisfaction with the contractors’ work product and overall performance occurred well before
then. Rather than terminate the contract, OSM decided simply not to renew it.

We were unable to determine the accuracy of the 7,000 job losses estimated in the EIS. While
the OSM Director testified before Congress that calculations used by the contractors were mere
“placeholders,” the numbers that went into that figure were not fabricated; they were based on
the contractors’ knowledge. Career OSM employees have questioned certain aspects of the
contractors’ methods of analysis, however, and the contractors themselves acknowledged that
because of the project’s rushed schedule, they were unable to do the full analysis they would
have preferred.

We provided this report to the Principal Deputy Assistant Secretary for Land and Minerals
Management for any action deemed appropriate.



                                                                                                    1
                                       BACKGROUND

Mining Oversight

Surface coal mining often involves removing the top of a mountain in order to recover the coal
underneath. The process creates an immense amount of excess dirt and rock, known as “spoil,”
which is typically dumped in nearby valleys and can damage or bury the streams that flow
through them. These mining activities are primarily regulated by the U.S. Department of the
Interior’s (DOI) Office of Surface Mining Reclamation and Enforcement (OSM) under the
Surface Mining Control and Reclamation Act of 1977, and by the U.S. Environmental Protection
Agency (EPA) and the Army Corps of Engineers under the Clean Water Act.

As part of the regulations implementing the Surface Mining Control and Reclamation Act, OSM
adopted requirements for a 100-foot “buffer zone” around streams as a means to protect the
stream channels from erosion from nearby mining activities. OSM modified the Stream Buffer
Zone (SBZ) rule in 1979, 1983, and most recently 2008 (30 C.F.R. § 816.57). The 2008 rule
replaced the 1983 rule, but there is ongoing dispute as to which rule better protects the
environment. Some OSM personnel have said the 2008 rule is stronger. Environmental groups
criticized the 2008 rule, however, saying it weakened environmental protections, and several
organizations filed suits challenging its validity.

In April 2009, the Secretary of the Interior asked the courts to vacate the 2008 rule (and thus
restore the 1983 rule), stating that OSM neglected to consult with the U.S. Fish and Wildlife
Service pursuant to the Endangered Species Act. Instead, the courts denied the U.S.
Government’s motion, in part because it would have allowed OSM to, in effect, repeal its own
regulation while bypassing the Administrative Procedures Act.

The Secretary entered into a settlement agreement on March 19, 2010, with the environmental
groups involved in the civil actions, stating that OSM would “make best efforts” to develop a
new rule that would be broader in scope than the 2008 SBZ rule. OSM later titled this new rule
the “Stream Protection Rule.”

The Environmental Impact Statement (EIS) for the Stream Protection Rule

The National Environmental Policy Act (NEPA), 42 U.S.C. §§ 4321 - 4370h, requires Federal
agencies to prepare detailed EISs to assess the environmental impact of any major Federal
actions significantly affecting the environment and present alternatives to them. On May 27,
2010, OSM hired Polu Kai Services (PKS) to conduct the work for the Stream Protection Rule
EIS. According to the statement of work, PKS was to prepare a draft and final EIS for the
proposed rulemaking and alternatives or options for the rule. PKS was also to prepare a
regulatory impact analysis (RIA), which is required by the Office of Management and Budget
(OMB) per Executive Order 12866 and OMB Circular A-4 for economically significant rules.
The RIA would examine the associated costs and benefits of the Stream Protection Rule,
including potential job losses. PKS hired three subcontractors to assist with the EIS/RIA project:
Engineering Consulting Services, Inc. (ECSI), and Morgan Worldwide, both based in Lexington,
KY, and MACTEC, based in Atlanta, GA.



                                                                                                  2
Media Coverage and Congressional Testimony

On January 26, 2011, the Associated Press reported that the proposed Stream Protection Rule
would eliminate thousands of jobs and cut coal production across the country. The news agency
appears to have obtained an unauthorized release of a draft copy of the EIS, which predicted
7,000 job losses associated with the new rule.

On March 8, 2011, DOI Deputy Secretary David Hayes testified before the U.S. House of
Representatives Committee on Appropriations. He told the committee that DOI disagreed with
the contractors’ economic analysis and was looking at “completely revamping it.” Hayes also
stated that if the contractors’ new drafts were not adequate, DOI planned to terminate the
contract.

OSM Director Joseph Pizarchik testified before the House Committee on Natural Resources on
April 7, 2011, stating that OSM and the contractors had ended their relationship a few weeks
earlier, on March 24, 2011. He said OSM did not end the contract because the job-loss numbers
were high. On November 4, 2011, Pizarchik testified again before the committee, stating that the
contractors’ numbers were “fabricated,” were based on “placeholder” numbers, and had “no
basis in fact.”

The president of subcontractor ECSI testified on November 15, 2011, before the Committee on
Natural Resources. He stated that at a meeting in February 2011, OSM employees had
“suggested” that ECSI and the other contractors revisit coal production impacts and job losses
associated with the Stream Protection Rule. He said OSM specifically asked the contractors to
change the assumptions that went into the calculations; doing so, he said, would create a
“fabricated” scenario that would show less impact and “soften” production losses. He told the
committee that shortly after the contractors refused to change their assumptions, they received a
notice from OSM that the contract with PKS would not be renewed.

Fox News posted an article on its Web site on November 18, 2011, titled “Contractors Claim
Administration Pressed to ‘Soften’ Job-Loss Estimates From Mining Rule.” The article repeated
the ECSI president’s testimony that after contractors refused to soften the job-loss numbers, they
learned that OSM was not renewing their contract.

                               DETAILS OF INVESTIGATION

We initiated this investigation on December 6, 2011, after news outlets reported that contractors
working on the EIS for the Stream Protection Rule were pressured to lower their estimate of job
losses that could result from adoption of the rule, and that OSM ended their contract when they
refused to do this. We investigated these two allegations and examined the accuracy of the EIS’
estimated 7,000 job losses, previously leaked to the press.

Lowering the Job-Loss Number

As we conducted our investigation, we found that the job-loss number leaked to the media appeared
in a draft of the EIS, but the numbers used to generate it came from the economic analysis in the



                                                                                                    3
RIA. In preparing an RIA, agencies must establish a “baseline,” or the agency’s “best assessment
of what the world would be like absent the action,” and then compare that to the proposed rule
and to a range of alternatives so the impact of the rule can be assessed.

To establish a baseline for the Stream Protection Rule, OSM and the contractors needed to look
at recent coal production numbers, as well as determine the rules and regulations that were in
place and being enforced at the time. This establishment of the baseline for comparing the
Stream Protection Rule is at the heart of the allegations.

During his November 15, 2011 testimony (and a subsequent interview with our office), ECSI’s
president stated that OSM employees told the contractors in February 2011 that to analyze the
economic effects of the Stream Protection Rule—comparing the baseline to the proposed rule—
contractors needed to assume that the 2008 SBZ rule was in effect and being enforced across the
United States. This was not the case, however, because although OSM had adopted the 2008
rule, it was in litigation; therefore, the 1983 rule was still being enforced. In our initial interview
of an OSM regulatory analyst, he also noted that because the 2008 rule was immediately challenged
in court, OSM did not notify the States, which had primary responsibility for regulating mining, to
amend their programs and enforce the rule.

The contractors with ECSI later told us that if they assumed that the 2008 rule was in effect as
part of the baseline, rather than the 1983 rule, it would show the Stream Protection Rule having
less of an impact on jobs. In essence, they said, the more-stringent 2008 rule, which had a steeper
cost to industry, more closely resembled the proposed Stream Protection Rule than the 1983 rule
did; therefore, using the 2008 rule as the baseline would lead to less-dramatic results. In his
interview, the OSM regulatory analyst confirmed that the 2008 rule appeared to be stricter than the
1983 rule.

Contractors’ Allegations of Pressure by OSM

ECSI’s president told us that since the beginning of the EIS/RIA project in summer of 2010, the
project’s original team lead, the former chief of OSM’s Regulatory Support Division, told the
contractors to use the “current regulatory regime” as the baseline for comparing the new rule and
projecting coal production and job losses. In most States, this would have been the 1983 SBZ rule.
After the job-loss number was leaked in January 2011, however, the contractors were told to apply
the 2008 rule “as it might have been enforced” to the baseline. ECSI’s president said it was clear
that OSM was “unhappy” about the leaked job-loss numbers, which he believed “came right on the
heels” of one of President Obama’s job-creation speeches.

ECSI’s president said that although the chief of the OSM Knoxville Technical Division had
previously discussed using the 2008 SBZ rule as part of the baseline, this was the first time that
OSM suggested this change to the contractors. He also said the impact of making the change would
have been significant in lowering the job-loss number.

We interviewed the executive vice president of ECSI about the baseline used for the RIA. He said
the former Regulatory Support Division chief initially told contractors to use 2008 coal production
numbers, which were produced under the 1983 rule, as the baseline for comparing the Stream



                                                                                                      4
Protection Rule. Once OSM realized the impact that the new rule would have on jobs, he said, OSM
wanted to change that assumption. He also told us that OSM stated “late in the program” that the
contractors should have been using the 2008 SBZ rule as the baseline (and thus assuming that the
coal production numbers were produced under the 2008 rule). To do so, he said, was “an absolute
lie.” He explained that the 2008 rule was stricter than the 1983 rule, and OSM wanted to “pretend”
that companies had mined under tougher regulatory conditions than they actually had. Comparing
the 2008 rule to the Stream Protection Rule, as opposed to the 1983 rule, he told us, would show the
Stream Protection Rule having less of an impact on the coal mining industry and fewer job losses.

He said he got the “clear message” from the Knoxville Technical Division chief and from Director
Joseph Pizarchik’s counsel that they wanted the baseline change to lower the proposed rule’s
impact on coal production and job losses. When asked for any documentation that this was their
intent, however, he could provide none, saying this was simply the impression he got from their
conversations. “It was clear that they wanted to soften the impact,” he said. “No question.”

We spoke to ECSI’s senior vice president, who said that OSM’s asking the contractors to change
the baseline created an ethical dilemma for them. He explained that the contractors had to compare
the Stream Protection Rule to the “status quo,” or what was happening at that point in time. Based
on their “moral principles as citizens” and their “duties as professional engineers,” he said, they
could not lie to the community. He told us that after the job-loss numbers were leaked to the press,
he informed the chiefs of the Knoxville Technical Division and the Ecological Services and
Technology Transfer Branch that the contractors would need to add a disclaimer to their work
stating that the analysis was hypothetical. The Ecological Services Branch chief told him he could
not do so; he said that she told him that he would need to “use weasel words” instead.

We also interviewed a former part owner of prime contractor PKS, the project manager of the
EIS/RIA contract. He reiterated many of the statements made by the ECSI executives, stating that
if the contractors changed the baseline to the 2008 rule, it would be “skewing” the numbers.

Evolution of the Baseline Used in the Analysis

Through email reviews, we were able to determine that in November 2010, OSM told the
contractors to use the 1983 SBZ rule as the baseline for calculating production and job losses
associated with the Stream Protection Rule:

   •   On November 3, 2010, the OSM regulatory analyst emailed OMB Policy Analyst Jim Laity,
       whose role, according to OMB, was to review draft rules and RIAs, about the baseline for
       the RIA. Laity responded that for any RIA the baseline would be the existing requirements
       absent a new rule, but told the regulatory analyst that since the 2008 rule was not in effect,
       “it is somewhat ambiguous what would be the status quo.” The regulatory analyst later
       responded to Laity that OSM would “instruct the EIS contractor to develop a baseline,
       which would consist of the costs and benefits of the [Surface Mining Control and
       Reclamation Act of 1977] regulatory program as it existed before adoption of the 2008 rule”
       (i.e., using the 1983 rule).
   •   On November 5, 2010, the regulatory analyst emailed a MACTEC employee, copying the
       former Regulatory Support Division chief and other OSM team members, stating that the



                                                                                                       5
        “status quo,” in which the States “have not yet adopted or implemented the 2008 rule,” was
        the baseline to which the RIA alternatives and options must be compared.
    •   On December 9, 2010, the former Regulatory Support Division chief emailed ECSI’s
        president, reinforcing that the baseline would not include the 2008 rule.

After receiving information on the costs of the rule to the coal mining industry, however, OSM
employees requested that the contractor use the 2008 rule as the baseline.

OSM team members appeared to know about the contractors’ predictions of the high cost of the
new rule to the coal mining industry on December 9, 2010. An OSM environmental protection
specialist forwarded an email to the chiefs of the Knoxville Technical Division and the Ecological
Services and Technology Transfer Branch, stating that the “bottom line” was that the Stream
Protection Rule would cost the coal mining industry about $1.3 billion to implement, with $900
million in Appalachia alone. He said that approximately one third of the production in Appalachia
was projected to move elsewhere.

The following month, Pizarchik’s counsel began to ask questions about the baseline. On January 4,
2011, she emailed the former Regulatory Support Division chief, asking: “Question – does our
economic analysis assume implementation of the 2008 rule . . . as the ‘status quo’ . . . ? I realize that
the 1983 rule is currently in place . . . and that the 2008 rule is only applied in TN and on Indian
Lands.” Four minutes later, she asked him if OSM knew the “cost of compliance” for the 2008 rule
and the 1983 rule.

We reviewed a recording of a February 1, 2011 meeting to discuss the baseline. The meeting
began with Pizarchik’s counsel discussing OSM’s concerns about the contractors’ work. She
stated that most of the contractors’ analysis was focused on the coal industry and the benefits of
the proposed Stream Protection Rule had not been assessed.

ECSI’s executive vice president later asked Pizarchik’s counsel whether the contractors should be
using the 2008 rule as the baseline for the economic analysis. She responded that OSM was
“looking at going from one rule to the next rule” and was “not looking at conditions on the ground.”
She later stated that OSM’s status quo was that the 2008 rule was “on the books.” When ECSI’s
executive vice president disagreed with this, she responded: “It’s not the real world. This is
rulemaking.”

ECSI’s executive vice president told Pizarchik’s counsel that he wished he had heard her viewpoint
much earlier in the process and that her direction was a “marked change to this whole program.” He
said he was “in shock” and that her direction was “a sea change” from what the contractors had
been doing. He also said that predicting what the job-loss numbers would be as if the 2008 rule had
been implemented was a “hypothetical exercise.”

During the meeting, the former Regulatory Support Division chief appeared to defend OSM’s new
position and said the contractors needed to consider “a world” where the 2008 rule was being
implemented, which was a more programmatic approach. ECSI’s executive vice president said the
contractors would basically have to “make up” how much coal could have been produced in certain
States, because most States were not enforcing the rule. He said the EIS was “a lie” and that he



                                                                                                        6
would not sign off on it. He also wondered if changing the baseline would cause the job losses to
completely disappear.

After the meeting, the contractors began to email each other, speculating on OSM’s intentions about
changing the baseline. On February 5, 2011, ECSI’s president emailed the team about concerns that
OSM was trying to “steer” the contractors to a “desired outcome” that could not be supported.
ECSI’s senior vice president emailed ECSI’s president and executive vice president on February 6,
2011, saying it was clear that OSM wanted an EIS showing minimal impact “for political reasons.”

On February 8, 2011, PKS forwarded to the subcontractors OSM’s list of “high priority” items,
which included the direction to use the 2008 rule as the baseline condition “to make all baseline
comparisons.” The same day, OSM issued a cure notice (used to inform the contractor that a
failure is endangering contract performance) to the EIS/RIA contractors, with one of the issues
being the contractors’ failure to use “30 C.F.R. Chapter VII in its entirety,” including the 2008 rule,
as the baseline. The document later referred to the RIA baseline as the 2008 rule. PKS responded to
the cure notice on February 23, 2011, stating that the first time OSM had voiced any concern about
using the 1983 rule as the baseline was after the job-loss numbers were leaked in January 2011.

We obtained emails showing disagreements within OSM about the baseline issues. On February 16,
2011, OSM employees discussed whether the RIA baseline should be the 2008 rule or the 1983
rule. Pizarchik’s counsel emailed the OSM team that the RIA needed to consider the incremental
cost from the 2008 rule to the Stream Protection Rule, “not going back to ‘83.” Andy DeVito, the
current chief of the Division of Regulatory Support, responded that when he and the OSM
regulatory analyst talked to OMB, they agreed that the baseline would be the status quo, meaning
the 1983 rule.

On March 3, 2011, Pizarchik’s counsel and DeVito again debated the baseline. Pizarchik’s counsel
wrote in an email: “Andy – The EIS is wrong. The RIA is wrong.” She told him the EIS/RIA was
an analysis of what OSM had “on the books” and the changes being proposed and the States’
implementation of the 1983 rule did not need to be considered. The following day, she emailed the
chief of the Knoxville Technical Division and the OSM environmental protection specialist,
stating that she had spoken with OMB’s Jim Laity and he preferred that the 2008 rule be the
baseline.

Response to Allegations

We interviewed the former Regulatory Support Division chief about the baseline issues. He said
his initial direction to the contractors regarding the baseline for comparing the Stream Protection
Rule was to use 2008 coal production numbers (the latest year of data available at the time),
produced under the 1983 rule, and the States’ current mining requirements.

The former Regulatory Support Division chief explained that the job-loss number was leaked the
day after the President gave his State of the Union address in January 2011. He said Pizarchik called
him to his office and told him he was concerned that the President had just given a speech indicating
that jobs would grow in this administration, and the next day it came out that something the OSM
Director was doing was going to have the opposite effect, which Pizarchik said was “very



                                                                                                      7
uncomfortable politically.” He said that Pizarchik told him that “obviously something needs to
change.”

Pizarchik questioned the former Regulatory Support Division chief on how the number was
developed, and he told Pizarchik the number was based on “good engineering practice and best
professional judgment.” That day, he said, he attended a number of “damage control” meetings with
Pizarchik, OSM Deputy Director Glenda Owens, Pizarchik’s counsel, and OSM Senior Advisor
Mary Katherine Ishee to look at how the numbers were calculated. He said these individuals told
him during these meetings to “figure out a way that the assumptions could be changed so that the
numbers didn’t look so bad.”

According to the former Regulatory Support Division chief, during one of the meetings, Pizarchik’s
counsel suggested that applying the 2008 SBZ rule to the baseline, rather than 1983, throughout all
of the States would show the Stream Protection Rule having less of an impact on the industry.
Pizarchik supported her suggestion, he said. The former Regulatory Support Division chief
disagreed, however, because OSM and DOI did not want to actually implement the 2008 rule (based
on the fact that DOI had asked the courts to vacate the 2008 rule), and because using it as the
baseline created a “hypothetical future.”

The former Regulatory Support Division chief said Pizarchik’s counsel also sent him an email the
last week of January 2011 stating that he needed to ensure the contractors did a better analysis of the
positive contributions of the Stream Protection Rule to the environment and ensure that the
assumptions about the impacts to coal production “are changed so that the numbers don’t look so
bad.” He said he believed that Pizarchik and his counsel “were trying to cook the books.” He was
unable, however, to provide a copy of this email. We subsequently reviewed his and the counsel’s
Government email accounts and were unable to locate the email in question.

We informed the former Regulatory Support Division chief that his comments at the February 1
meeting appeared to endorse the baseline change. He replied that just before the meeting, he had
been heavily criticized for his management of the project, so at the meeting, he was “probably very
resigned to try to get the job done.”

We interviewed a former OSM procurement chief who served as the contracting officer on the
EIS/RIA contract. She confirmed the baseline was a “huge issue” that caused many problems
between OSM and the contractors. She remembered attending meetings where ECSI’s executive
vice president asked whether the 2008 rule should be used as a baseline to project job losses, given
that the rule was still being litigated. She said the former Regulatory Support Division chief finally
told the contractors at one point to ignore using the 2008 rule as part of the baseline because no one
had embraced it.

The former procurement chief also attended the February 1 meeting with the contractors to attempt
to resolve issues with the contract. She said Pizarchik’s counsel told the contractors they needed to
use the 2008 rule as the baseline, contradicting the former Regulatory Support Division chief’s
previous guidance. The former procurement chief said the contractors “were dumbfounded”
because this was the first time they had been told to do so.




                                                                                                      8
An OSM senior program analyst who served as the contracting officer’s representative on the
EIS/RIA contract believed that the Knoxville Technical Division chief and Pizarchik’s counsel
wanted the contractors to use the 2008 rule as the baseline. Her impression was that this direction
ultimately came from Pizarchik. When asked if using the 2008 rule as the baseline was an effort to
lower the job-loss finding, she said she had never heard this but did hear that the job-loss number
“was going to be hard to overcome.”

Andy DeVito confirmed that earlier in the RIA process, he and the OSM regulatory analyst had
asked OMB for guidance on how to determine the baseline. DeVito explained that for OSM, the
status quo was the 2008 rule for Tennessee and Washington and the 1983 rule for the other
States. He informed Pizarchik’s counsel of this in March 2011. We showed DeVito the emails
between him and the counsel in February and March 2011, in which she appeared to advocate using
the 2008 rule as the baseline, and he said that a credible argument could be made for using the 2008
rule because that was the rule on record. When told that other people we interviewed said that
using the 2008 rule as the baseline would not show as many job losses as the 1983 rule because
of stricter requirements in the later rule, DeVito agreed with that conclusion.

DeVito stood by his initial opinion that the baseline for the RIA should be the 1983 rule, stating that
it was “a more honest approach.” He then said “honest” might not be the right word—that using the
1983 rule would be more “accurate.” He stated that he did not know Pizarchik’s counsel’s intent or
motivation in wanting the baseline changed to the 2008 rule.

We interviewed the Knoxville Technical Division chief, who took the former Regulatory Support
Division chief’s place as the EIS/RIA team lead in late 2010. He said that when OSM told the
contractors to use the 2008 rule as a baseline, the contractors believed OSM had made the job losses
“disappear.” He said this was not true, however, because the 2008 rule mimicked what companies
already had to do to comply with the Clean Water Act. He defended using the 2008 rule as the
baseline, stating that even though the rule was being litigated, it was “on the books” in 30 C.F.R.
Chapter VII, which was why he wanted it to be used. He later stated that he believed the baseline
issues were settled in December 2010 and provided a draft of the RIA, which noted that the RIA
baseline used “2008 data for analysis purposes to reflect the current regulatory environment,
including the 2008 Stream Buffer Zone Rule and other existing regulations applied to the coal
mining industry.”

Agent’s Note: During our interview of DeVito, we asked him about this reference to the 2008 SBZ
rule in the RIA, and he said this may have been referring to the State of Tennessee’s implementation
of the 2008 SBZ rule.

We also interviewed the chief of OSM’s Ecological Services and Technology Transfer Branch,
who said the 2008 rule needed to be used as the baseline for the RIA. She explained that the 2008
rule had already been analyzed through a previous EIS, and OSM needed to move forward from that
point. She said the cost for implementing the 2008 rule was already being incurred by industry, or
was going to be. She agreed that using the 2008 rule as the baseline, as opposed to the 1983 rule,
would show less of an impact on coal production and job losses, but she stated that OSM employees
were not trying to lower the job-loss numbers and were only worried about ensuring the contractors’
product complied with regulations.



                                                                                                      9
In a second interview, the Ecological Services Branch chief discussed her alleged telephone
conversation with ECSI’s senior vice president, in which she reportedly told him to use “weasel
words” when he wanted to add a disclaimer about using the 2008 rule. She said she did not recall
the conversation but acknowledged she may have used the phrase “weasel words” during a
conversation with him. She said she had worked as a consultant, and consultants would not use the
word “hypothetical” in their reports to describe an analysis. She stated, however, that she did not
mean that ECSI’s senior vice president should not tell the truth in the report.

We also interviewed Glenda Owens and Mary Katherine Ishee about the former Regulatory
Support Division chief’s allegation that meetings occurred where they discussed lowering the job-
loss number. Both said that during these meetings, senior OSM officials were trying to determine
what the figure was based on. Ishee stated that OSM “obviously” wanted to get the job-loss
number lower at some point, but her conversations involved determining the accuracy of the
numbers and then looking at whether certain provisions of the rule were “worth it.” She said she
never heard anyone suggest “doctoring” the baseline.

We interviewed Pizarchik about the decision to have the contractors change the baseline to the
2008 rule. He said he did not know who made the decision, but he believed the 2008 rule needed
to be the baseline because it reflected the current regulatory status. Pizarchik said he had no
expectations regarding the job-loss number calculated by the contractors, so the number was a
shock. He realized, however, that the contractors had not looked at the benefits of the Stream
Protection Rule, including job increases for positions like aquatic biologists.

Regarding the allegations that he met with OSM officials after the job-loss number was leaked
and told them that the number needed to be lowered, Pizarchik recalled meetings where he and
other officials discussed needing to understand the basis of the number. Once they understood
that, he said, they could find ways to lower the job-loss number based on changing provisions in
the rule. He denied that OSM pressured the contractors to change how the job-loss number was
calculated in an effort to lower the figure.

We asked OSM and DOI officials, including Sylvia Baca, Deputy Assistant Secretary for Land
and Minerals, if senior DOI officials or the Executive Office of the President had any influence
on the baseline. We found that Pizarchik’s counsel had been detailed to the Council on
Environmental Quality, under the Executive Office of the President, from August 2009 to May
2010, and that members of the Council attended meetings with OSM on the Stream Protection
Rule. We did not find evidence, however, that the Council or senior DOI officials improperly
influenced the baseline or the job-loss numbers.

When we spoke to Pizarchik’s counsel, we asked her when she first learned of the production
losses and industry costs assessed by the contractors. She said that prior to December 22, 2010,
OSM realized that if what the contractors put forth could be substantiated, the economic effect of
the Stream Protection Rule would be bigger than OSM expected. We showed her the email from
her to the former Regulatory Support Division chief on January 4, 2011, asking whether the
baseline for the RIA was the 2008 rule or the 1983 rule. She acknowledged that at that point, she
did not have an opinion on the issue.




                                                                                                  10
Pizarchik’s counsel said her intention in later recommending that the baseline for the RIA be the
2008 rule was to have an EIS that complied with NEPA regulations. She provided a detailed
summary and legal analysis of her reasons for wanting the baseline to be the 2008 rule, as well as
her notes from various meetings on the EIS/RIA. Although the 2008 rule was not in effect, the
summary document outlined that OMB required that the baseline “reflect the future effect of
current programs and policies.” The document stated that OSM had a regulatory obligation to
evaluate the contractors’ analysis, and OSM’s questions regarding the baselines and alternatives
to the Stream Protection Rule were “driven by” NEPA and DOI responsibilities, and Federal
statutory and regulatory requirements. She also confirmed that she had discussed the matter with
OMB’s Jim Laity, and said that he told her that he preferred that the 2008 rule be the baseline.

We informed Pizarchik’s counsel of the former Regulatory Support Division chief’s allegation
that after the job-loss number was leaked, OSM officials discussed lowering the number and she
suggested using the 2008 rule as a means to do that. She did not agree with this statement. She
stated that OSM realized OMB would never accept the published job-loss number, so OSM
needed to understand where the numbers came from.

We asked her if her desire to use the 2008 rule as the RIA baseline was an effort to lower the
job-loss number. She replied that it was simply an effort to obtain accurate information. We later
asked her this question again, and she responded: “I don’t think it was. . . . It was not my job to
deal with the job-loss numbers,” but she later acknowledged that she knew that changing the
baseline to the 2008 rule would lower the job-loss number.

We interviewed the OSM regulatory analyst about the baseline issues, including his initial
communication with Laity. He said he originally believed OSM needed to use the 1983 rule as
the baseline for the RIA and that Laity approved this. He explained that the 1983 rule was the
easier baseline because the contractors could use actual data and “wouldn’t have to manipulate
them in any way.” He said that if he were under time constraints, as PKS was, he would want to
use the 1983 rule and “the actual numbers that were out there.”

We showed a copy of Pizarchik’s counsel’s summary supporting her decision to use the 2008
rule as the baseline to the regulatory analyst, and he said her arguments appeared accurate and
valid. We also showed him OMB guidance on baselines, provided by Pizarchik’s counsel, which
stated that agencies “should incorporate the agency’s best forecast of how the world will change
in the future.” The regulatory analyst said he had never seen this guidance document. He said that
because Laity approved the original method, he still believed that it was valid, but based on the
OMB document, Pizarchik’s counsel’s position to use the 2008 rule was the better option.

OMB declined to make Laity available for an interview, but it agreed to answer a list of
questions we submitted for him. OMB’s response explained that the baseline for the RIA was the
“state of the world absent the regulatory action being considered.” It also stated that some
interpretation by agencies might be applied to baseline conditions, and when rules and
regulations were in litigation, the baseline or status quo could be “a legitimate source of
uncertainty.” The response stated that in those cases, multiple baselines could be used.




                                                                                                 11
OMB stated that Laity advised the OSM analyst that using the 1983 rule as the baseline appeared
“reasonable and consistent with OMB’s guidance.” Using the 2008 rule as the baseline would
also be reasonable, according to OMB, since the 2008 rule could be implemented if the Stream
Protection Rule was not promulgated. However, it said there was “value in showing the public
what costs and benefits” would result from the Stream Protection Rule, starting from the present,
and this could “get lost” using the 2008 rule because true costs had not been incurred (since it
was never implemented). From OMB’s response, it does not appear that Laity expressed a
preference in using the 2008 SBZ rule as the baseline, as Pizarchik’s counsel indicated; he felt
there were reasonable arguments for using both rules.

OMB also stated that Laity did not recall having baseline discussions with anyone besides OSM
staff. It further stated that OMB was not trying to influence the job-loss number. Laity believed
OSM genuinely tried to determine the best way to conduct the analysis in an ambiguous situation
and was not selecting analytical assumptions to achieve any particular result.

We interviewed the president of subcontractor Morgan Worldwide, who calculated the costs
associated with the Stream Protection Rule and actually configured the baseline. He said he used
2008 coal production data as the baseline for his analysis, which included the 1983 rule, and then
looked at current industry practices, including what was required for filling streams under the Clean
Water Act. When asked about OSM’s directive that the 2008 rule should be applied as the baseline,
he said the contractors were “very clear” that the 2008 rule could not be applied.

Morgan Worldwide’s staff attorney, who was also present for the interview, stated that using the
2008 rule as the baseline would be difficult since the rule had never gone into effect due to
litigation and there was no way to know how long the legal case would continue. Morgan
Worldwide’s president and staff attorney stated that because of newer Clean Water Act
requirements, mining operators were already expected to comply with the major aspects of the 2008
rule, so the baseline issue was a moot point. Regarding the arguments between OSM employees and
the contractors at the February 1, 2011 meeting, the staff attorney said OSM might not have known
about the Clean Water Act requirements and how they mirrored 2008 rule requirements.

Both Morgan Worldwide’s president and staff attorney said OSM employees were not purposely
trying to lower the job losses by using the 2008 rule as the baseline. Both believed OSM was trying
to get an accurate depiction of the effects of the proposed rule.

Although the PKS contract with OSM ended in March 2011, Morgan Worldwide’s president and
staff attorney subcontracted with Industrial Economics, the new prime contractor on the EIS/RIA
project, in June 2011 and have continued their work on the project.

PKS Contract Initiation, Performance, and Conclusion

We also investigated the allegation that OSM terminated the contract with PKS when the
contractors refused to change the job-loss numbers. We examined contract documents, reviewed
emails, and questioned OSM and contract employees about the contract process, PKS’ work
product, and any problems that occurred during the contract.




                                                                                                   12
Contract Initiation

The former OSM procurement chief we interviewed said OSM decided to award a firm, fixed-
price contract to PKS on May 27, 2010, because it rated similarly to its competitors and PKS’ price
was $1 million lower. At OSM’s recommendation, PKS subcontracted with Morgan Worldwide,
MACTEC, and ECSI. She said ECSI was well known for working with the coal industry and
Morgan Worldwide was known for its environmental work. She said that using ECSI and Morgan
Worldwide as subcontractors provided OSM with a balance that represented both environmental
and coal advocates.

OSM later added additional tasks to the contract, bringing its total value to $4,981,670. The
initial deadline for completing the draft EIS was November 19, 2010, with three 1-year options
that could later be exercised.

OSM made several additional modifications to the contract for public scoping meetings.
According to the former procurement chief, this extra work was added because a dispute occurred
between OSM and the contractors as to whether OSM had done official scoping meetings on the
EIS, as required by NEPA. Pizarchik later approved the addition of more meetings, which the
former procurement chief said changed the contract substantially.

OSM continued to issue modifications to the contract for developing alternatives for the
proposed Stream Protection Rule. Another modification involved the development of a
“conceptual” RIA and draft EIS. During her interview, an OSM physical scientist who had acted as
the original contracting officer’s representative provided insight into these last two modifications.
She explained that OSM did not initially provide defined alternatives for the proposed rule, which
the contractors needed to begin their work. She told us the former Regulatory Support Division
chief directed the contractor to prepare the conceptual RIA to save time even though she said there
was “no such thing” as a conceptual RIA. The OSM senior program analyst who replaced the
physical scientist on the project stated that the change to a conceptual document later caused
problems when OSM realized that it was not going to receive a product.

The “conceptual RIA” issue appeared to contribute to performance issues with the contract. The
former Regulatory Support Division chief stated during his interview that tight deadlines set by
Pizarchik for the EIS/RIA, and the fact that the team did not have the specificity of what was being
proposed in the new rule, prompted him to direct the contractors to prepare a conceptual RIA,
meaning they would use the rulemaking concepts to develop the document. He said the conceptual
RIA was explained to Pizarchik and possibly the Acting Assistant Secretary for Land and Minerals
Management’s office, but he did not know if they really understood what it meant. Pizarchik also
stated during his interview that he may have approved a conceptual RIA, but he later found out
that such a document did not exist.

Contract Performance

Numerous individuals involved in the EIS/RIA contract, including OSM employees, attorneys
with the DOI Office of the Solicitor (SOL), and State government employees, expressed
concerns with the contractors’ work as a whole:



                                                                                                  13
   •   On September 10, 2010, the OSM senior program analyst emailed the former OSM
       procurement chief that she was concerned because the contractors were requesting more
       extensions. She stated that she had nothing good to say about the contractors, and that
       they lacked project management skills and were disregarding OSM’s requirements.
   •   An OSM hydrologist emailed colleagues on October 28, 2010, regarding certain sections
       of the EIS, stating that the contractors “did not do their homework.”
   •   On November 9, 2010, a second OSM hydrologist emailed other OSM employees about
       her review of the surface water section of the EIS. She wrote that the section was the
       “most poorly written ‘professional’ document” she had ever seen, and that it lacked
       clarity, content, organization, and grammar, adding that the section “contained info that
       was totally irrelevant” and lacked data that should have been included. The second
       hydrologist commented: “If this had come from one of my entry-level students (when I
       taught college hydro), I would have failed them.”
   •   An assistant solicitor from SOL’s Branch of Surface Mining emailed OSM employees on
       January 19, 2011, expressing significant concerns with the contractors’ work, particularly
       their focus on the Stream Protection Rule’s impact on coal production, rather than the
       physical environment.
   •   The West Virginia Department of Environmental Protection sent the former Regulatory
       Support Division chief a letter dated January 26, 2011, stating that Chapter 4 of the EIS,
       as with previous chapters, “leaves a lot to be desired.” The letter stated that for a
       document that was supposed to support a rule “anticipated to make sweeping changes” in
       every technical aspect of coal mining, the document displayed “very little depth of
       understanding” of technical issues. It further stated: “The characterization of this
       document as ‘junk’ is not just one person’s observation.”

Interviews with OSM, EPA, and some contract employees revealed the same concerns with the
contractors’ products:

   •   The OSM senior program analyst said that OSM was concerned about the quality of the
       work after it received drafts of the EIS. For example, she said, sections of the EIS did not
       appear to be coordinated.
   •   The Knoxville Technical Division chief said that OSM was getting “smoke and mirrors”
       after it received drafts from the contractors and had conversations with them. He later stated
       that there were holes in the RIA and he was not sure the contractors knew what they were
       doing. PKS had experience doing project-specific EISs but not programmatic ones such as
       the proposed Stream Protection Rule, he said, which was much broader in scope.
   •   The Ecological Services Branch chief said she and other OSM employees began getting
       more involved in the EIS process toward the end of 2010 because they believed it was “a
       train wreck about to happen.” She stated that when OSM employees first received the
       contractors’ product, they thought it was a “piece of garbage” and that OSM had wasted
       time and money.
   •   Mary Katherine Ishee said PKS did not have the depth of experience to manage the
       contract well, which contributed to problems with the work. She said the company had
       never done a project as ambitious as the EIS/RIA for the Stream Protection Rule. She
       explained that working on a tight time frame for something so highly visible offered
       plenty of opportunities to “fall down.”


                                                                                                   14
   •   We also interviewed an EPA environmental protection specialist and a special assistant
       with the EPA Office of Water who were involved in the EIS/RIA review process. EPA’s
       environmental protection specialist said the EIS chapters provided by PKS lacked focus
       and did not appear to be coherent. The special assistant said that it appeared that someone
       had “dumped” a lot of information in the chapters he reviewed. He said a lot of the tables
       and maps seemed out of context and lacked a coherent structure, and described the
       chapters as disjointed.

According to Pizarchik, he received information at some point through the process for the
EIS/RIA that the former Regulatory Support Division chief was not accurately portraying how
work was progressing with the contractors. He said he realized the former Regulatory Support
Division chief was not delegating tasks and had difficulty meeting deadlines. Pizarchik said he
removed him from the EIS team in late 2010.

Contract Conclusion

We reviewed emails related to OSM ending the contract with PKS and its subcontractors. We
found that emails began to circulate within OSM about terminating the EIS/RIA contract after
the Associated Press reported that 7,000 coal mining jobs would be lost as a result of the Stream
Protection Rule.

On January 26, 2011, an OSM employee emailed Pizarchik’s counsel a link to the Associated
Press article. The following day, the counsel emailed Pizarchik, stating: “We should fire the EIS
contractor. And put that on the front page!!!!” Several hours later, she emailed a SOL assistant
solicitor that OSM was considering its options for terminating OSM’s contract with PKS. She
attached an “EIS options” document to the email, listing the pros and cons of continuing the
contract, terminating the contract for convenience, or terminating the contract for cause. She
noted that terminating the contract for convenience might look like retaliation. On February 5,
2011, she emailed the Knoxville Technical Division chief that OSM could “salvage the EIS”
with Morgan Worldwide’s president, “reject the RIA, and cut loose PKS.” She said OSM could
then attempt to sole-source the RIA contract to Morgan Worldwide.

The cure notice OSM sent PKS on February 8, 2011, stated that PKS’ failure to deliver draft
chapters of the EIS/RIA that met the contract’s requirements had placed the entire project in
jeopardy. The cure notice stated that unless PKS submitted a draft EIS/RIA that cured the
deficiencies, the Government might elect to terminate the contract for default.

PKS’ response to the cure notice stated that OSM could not terminate the contract since the
deficiencies were not PKS’ responsibility or fault. PKS added that it had been frustrated with
OSM’s direction and approval process, highlighting OSM’s failure to properly conduct public
scoping meetings at the outset and provide the contractors with a list of alternatives for the new
rule, all of which delayed PKS’ work. The response also stated that high turnover rates of OSM
project leaders and contracting officials compounded delays and caused internal disputes at
OSM. It further stated that many of the alleged deficiencies in the cure notice were inconsistent
with previous direction and approvals provided by OSM employees.




                                                                                                  15
On February 25, 2011, the former OSM procurement chief issued a stop-work order to PKS, thus
ceasing all contract tasks.

We obtained a document, dated March 7, 2011, and labeled “Attorney Work Product Prepared in
Anticipation of Litigation,” in which Pizarchik’s counsel recommended that OSM attempt to
partially terminate the contract with PKS. She wrote that while OSM could make a case for
terminating the entire contract, there were benefits to retaining PKS to do some remaining work.
She recommended that OSM contract with a nationally recognized firm to prepare a new RIA.

On March 16, 2011, an attorney-advisor from SOL’s Acquisitions and Intellectual Property
Branch, General Law Division, sent SOL and OSM employees a recommendation summary on
ending the contract with PKS. The document stated that PKS’ response to the cure notice failed
to provide assurance that it could fully perform under the contract; however, based on new
information provided by the contractors, it appeared that OSM employees were also involved in
the contract performance issues. SOL recommended that OSM make a last attempt to work with
PKS “in a limited fashion” but de-scope the contract and remove all substantive work related to
the EIS/RIA. It stated that OSM could finish the EIS in house and re-compete the RIA. The
document stated that this approach would mitigate public relations issues related to “terminating
the contract because OSM did not like the leaked numbers.”

We interviewed this attorney-advisor, who said that SOL and OSM discussed letting the contract
expire and not exercising the options because this was “the least obtrusive way.” She said OSM did
not want to contend with the litigation of terminating for cause and the potential of losing in court.
She also said she found that OSM employees contributed to problems with the contract, which was
one reason the contract could not be terminated. According to the attorney-advisor, OSM also did
not want to terminate the contract for convenience because of problems with the contractors’
performance.

When asked about her statement in the SOL summary about OSM not liking the leaked numbers,
the attorney-advisor clarified that terminating the contract would be “a public relations disaster”
because the contractors would allege that OSM terminated them due to the leaked numbers.
Although she said that this was OSM’s biggest fear, she noted that a primary reason for terminating
the contract was that OSM did not have any faith that the product would be usable, even if the
contractor was given more time to work on it.

During her interview, the OSM senior program analyst said she suggested to the former
procurement chief that rather than terminate the contract for convenience, OSM should simply end
the contract and not renew the option year. She said she told the chief that OSM did not have
“absolutely clean hands on this.” In the end, she said, both OSM and the contractors agreed to end
the contract.

The contract ended on March 24, 2011. OSM paid PKS $3,700,269 for its work on the contract—
$1,281,401 lower than the original price—including all tasks. The Knoxville Technical Division
chief sent a “Lessons Learned” document to OSM employees for review on March 31, 2011. The
document stated that the accelerated timeframe of the EIS/RIA caused a number of problems and
drove poor decisions, resulting in “unacceptable work product quality.”



                                                                                                    16
Why the Contract Ended

DOI employees we interviewed who were involved in the EIS/RIA project stated that the PKS
contract did not end because of the disagreement over changing the baseline for the economic
analysis. Most of these individuals outlined problems with the contractors’ performance and their
lack of experience doing programmatic EISs, as documented previously. The contractors also
acknowledged that they did not have experience doing programmatic EISs such as the one
developed for the Stream Protection Rule.

OSM employees admitted contributing to problems in getting the work done, including the tight
deadlines imposed, the new work added at the beginning of the project, and the conflicts in
direction provided by different OSM employees throughout the project. Pizarchik acknowledged
the probability that both OSM staff and the contractor made some bad judgments.

OSM employees acknowledged that the leak of the job-loss numbers to the Associated Press
brought visibility to problems with the contractors, which spurred discussions of ending the
contract. Ishee, for example, stated that had there been more time, more money, and less
publicity surrounding the project, the issues probably would have been worked out. Pizarchik’s
counsel also said that had the numbers not been leaked, and had DOI officials not become
focused on the contractors’ work, “it would have been something that OSM dealt with in the
back-and-forth of review of this [EIS/RIA] document.”

We questioned Pizarchik’s counsel about her email that OSM should “fire” the EIS contractor.
She stated that she had simply been venting. When asked about the email between her and the
Knoxville Technical Division chief, in which she said OSM could “cut loose” PKS and pursue a
contract with Morgan Worldwide’s president, she said cutting PKS loose meant ending the
contract, not firing the company. She said OSM was considering sole-sourcing the RIA contract
to Morgan Worldwide’s president, but eventually contracted with Industrial Economics, with
Morgan Worldwide’s president as a subcontractor.

Some DOI employees also acknowledged the political implications of getting the rule out before
a presidential election year. When asked if OSM ever considered extending the deadlines for the
contractor to finish the work, the attorney-advisor said she originally proposed going back to the
courts about the 2008 SBZ rule and getting a continuance, but there was “some feeling that this
needed to be done this election year.” Ishee also recalled the election being mentioned, but did not
feel that it was “unduly a concern here.” We asked Pizarchik’s counsel about this issue, and she
said there was a general concern that the Stream Protection Rule was a priority of the
Administration, and OSM “wanted to get it done.” Pizarchik acknowledged that the longer the
EIS/RIA was delayed, the more uncertainty it created, and he wanted the Stream Protection Rule
to be finished during the President’s first term. He said, however, that he still wanted a good
product.

The Accuracy of the Job-Loss Number

We examined the accuracy of the job-loss number reported by the Associated Press. In his April
7, 2011, testimony before the Committee on Natural Resources, Pizarchik stated that the



                                                                                                 17
contractors’ job-loss numbers did not “have a sound basis.” On November 4, 2011, he testified
that the contractors’ numbers were “fabricated,” were based on “placeholder” numbers, and had
“no basis in fact.”

The Contractors’ Methods

According to ECSI’s president, the EIS/RIA team had numerous discussions trying to determine
how it would analyze the impacts of the various Stream Protection Rule alternatives. One thought
was to develop a “model mine” and then analyze the effects the rule would have on a typical mining
operation, but the team did not have enough time to do this. ECSI’s president said that he, the
former Regulatory Support Division chief, and Morgan Worldwide’s president proposed doing an
“expert elicitation process,” where the contractors would analyze the production shifts themselves
and then validate their findings by soliciting information from mining companies.

ECSI’s president said they planned to provide the rule alternatives to the mining companies to
solicit the information. He did not believe this would be an issue since OSM had stated from the
beginning that the contractors would be seeking input from industry. ECSI was ready to send
information packages to the companies on December 15, 2010, when ECSI’s president decided to
check with the former Regulatory Support Division chief again to ensure that he approved soliciting
input from the coal industry. ECSI’s president said that he told him not to provide the documents to
industry because they revealed too much of the proposed rule. Because of this, he said, the team was
“left with” just the expert elicitation numbers.

ECSI’s president said the production impacts that the expert elicitation team calculated in
association with the new rule were provided to MACTEC to input into a software model called
IMPLAN, which then computed that 7,000 jobs would be lost. He said that in the time frame given
for the project, this was the best analysis that could be done. He added that the number was lower
than he had expected.

The former Regulatory Support Division chief also stated that the initial plan for the EIS/RIA was
to obtain input from the coal mining industry on the general provisions of the rule alternatives and
their effect on a typical mine. He said that an industry survey would be the basis for getting realistic
numbers on what the rule would do. He said that Pizarchik knew he planned to take this approach,
but Pizarchik changed his mind when they discovered that leaks of information had occurred at
different points during the EIS process.

The former Regulatory Support Division chief stated that they then had to figure out a different way
to conduct the EIS. He said he decided to have the contractors conduct a professional elicitation
with a panel of experts as a methodology to develop the best estimate of coal production shifts
associated with the different alternatives. He said the contractors gave their best professional
judgment of how each provision of the rule would affect coal production, and then calculated a
percentage change.

Morgan Worldwide’s president said he developed the figures for the RIA that were eventually used
to calculate the job losses in the EIS. He described them as an initial approximation, but
acknowledged he may have used the word “placeholder” to describe them to OSM staff. The



                                                                                                      18
numbers were based on his review of historic mining data and his knowledge of mining regions and
what the proposed rule components and effects would have, he said. Morgan Worldwide’s staff
attorney explained that the president planned to go back and get supporting documentation to back
up the costs and make them as accurate as possible.

Agent’s Note: The job-loss number was leaked to the media before Morgan Worldwide’s president
could do this.

Morgan Worldwide’s president estimated that his error range for the cost to industry was 20 to 25
percent and 10 percent for the coal production shift calculation. He said he would “stand behind” his
numbers. He said Pizarchik’s comments about the inaccuracy of the numbers was a “knee-jerk
reaction to a very good sound bite” in the press about job losses, “which played into the politics at
the time.”

He also told us he disagreed with the use of the IMPLAN software used to compute the job-loss
numbers and said he expressed disagreement with using it from the beginning. He explained that his
concern was that the IMPLAN model was too simplistic.

OSM Employees’ Views of the Contractor’s Approach

We also interviewed OSM employees on their views of the contractors’ methods and the accuracy
of the job-loss numbers. OSM’s Ecological Services Branch chief disagreed with the expert
elicitation approach. She said the contractors were not able to explain how they came up with their
findings from this method. She later said that the former Regulatory Support Division chief seemed
to be unilaterally approving decisions on the EIS/RIA without soliciting input from others.

The Knoxville Technical Division chief said that OSM and the contractors agreed to use the expert
elicitation process because the timeline for finishing the EIS was tight. Later in the EIS/RIA
process, however, the contractors were unable to describe how they arrived at their final numbers,
he said. He said OSM also questioned the contractors’ use of the IMPLAN software model.

When asked about the contractors’ original plan to solicit the coal mining industry for input, the
Knoxville Technical Division chief said that OSM did not like that idea because it feared operators
might inflate their costs. OSM consequently told the contractor not to solicit information from the
industry, and that operators would have a chance to voice their concerns once the rule was
published.

He did not believe the numbers used by Morgan for the RIA were fabricated. He thought they were
a “first-pass estimation.” Nonetheless, he said, the job-loss number was inaccurate because the data
used to produce it were flawed and the contractors did not consider any environmental benefits that
might result from the Stream Protection Rule.

Similar to the chiefs of the Knoxville Technical Division and the Ecological Services and
Technology Transfer Branch, Pizarchik told us that the contractors could not explain how they
came to their conclusions. Without having that type of information, he said, he could not explain




                                                                                                  19
to anybody in DOI or in the Administration how the numbers were derived, “let alone” defend
the conclusions in any future litigation.

We asked Pizarchik where the term “placeholder,” which he used to describe the numbers used
by Morgan Worldwide to calculate coal production losses and costs to industry, came from.
Pizarchik said his staff informed him that the contractor had used a “placeholder” number. He
said he understood the word meant that the number had “no basis to the formula” and “no basis
in reality.”

                                         SUBJECTS

1. Joseph Pizarchik, Director, OSM.
2. Former Counsel to the OSM Director (currently the Senior Adviser for Enforcement
   Programs, Bureau of Safety and Environmental Enforcement).

                                       DISPOSITION

We provided this report to the Principal Deputy Assistant Secretary for Land and Minerals
Management for any action deemed appropriate.




                                                                                              20
